BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for Writ of
Certiorari in John Schickel and David Watson v.
George C. Troutman, Pat Freibart, Tony Goetz, Elmer
George, Ken Winters, Tom Jensen, Sheldon Baugh,
Phil Huddleston, and Anthony M. Wilhoit, in their
official capacities as members of Kentucky Legislative
Ethics Commission; H. John Schaff, in his official
capacity as Executive Director of the Kentucky
Legislative Ethics Commission, were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 3rd day of October, 2019:
Laura Crittenden Tipton
Andrew G. Beshear
Office of the Attorney General of Kentucky
700 Capitol Avenue, Suite 118
Frankfort, KY 40601
(502) 696-5300
andy. beshear@ky.gov
La Tasha A. Buckner
Office of the Attorney General
1024 Capital Center Drive, Suite 200
Frankfort, KY 40601
(502) 696-5300
latasha. buckner@ky.gov

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Robert A. Winter, Jr.
Counsel of Record
Law Office of Robert A. Winter, Jr.
P.O. Box 175883
Fort Mitchell, KY 41017-5883
(859) 250-3337
robertawinterjr@gmail.com
Christopher Wiest
Chris Wiest, Attorney at Law, PLLC
25 Town Center Boulevard, Suite 104
Crestview Hills, KY 41017
(513)257-1895
chris@cwiestlaw.com
Thomas B. Bruns
Bruns, Connell, Vollmer, Armstrong
4750 Ashwood Drive, Suite 200
Cincinnati, OH 45241
(513) 326-0274
tbruns@bcvalaw.com
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 3, 2019.

Julie f_ k rshner
agher Legal Publishing, Inc.
Becke ·
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

{J~

k

3

d'w~
.
~
Notary Public

1

2tJJC/

[seal]
JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

